IN THE COURT OF APPEALS OF THE STATE OF IDAHO
Docket No. 47810
STATE OF IDAHO,

)

) Filed: December 30, 2020
Plaintiff-Respondent,

)

) Melanie Gagnepain, Clerk
v.

)

THOMAS MORGAN SOPER, II,

) THIS IS AN UNPUBLISHED
) OPINION AND SHALL NOT
) BE CITED AS AUTHORITY

Defendant-Appellant.

)

Appeal from the District Court of the Fifth Judicial District, State of Idaho,
Minidoka County. Hon. Jonathan P. Brody, District Judge.
Judgment of conviction and unified sentence of ten years with five years
determinate for felony driving under the influence of alcohol, affirmed: order
denying Idaho Criminal Rule 35 motion for reduction of sentence, affirmed.
Eric D. Fredericksen, State Appellate Public Defender; Justin M. Curtis, Deputy
Appellate Public Defender, Boise, for appellant.
Hon. Lawrence G. Wasden, Attorney General; Kacey L. Jones, Deputy Attorney
General, Boise, for respondent.

Before HUSKEY, Chief Judge; LORELLO, Judge;
and BRAILSFORD, Judge
PER CURIAM
Thomas Morgan Soper, II, pled guilty to felony driving under the influence of alcohol,
Idaho Code § 18-8004C(2). In exchange for his guilty plea, additional charges were dismissed.
The district court imposed a unified sentence of ten years with five years determinate. Soper
filed an Idaho Criminal Rule 35 motion, which the district court denied. Soper appeals.
Sentencing is a matter for the trial court’s discretion. Both our standard of review and the
factors to be considered in evaluating the reasonableness of the sentence are well established.
See State v. Hernandez, 121 Idaho 114, 117-18, 822 P.2d 1011, 1014-15 (Ct. App. 1991); State
1

V. Lopez, 106 Idaho 447, 449-51, 680 P.2d 869, 871-73 (Ct. App. 1984); State v. Toohill, 103
Idaho 565, 568, 650 P.2d 707, 710 (Ct App. 1982). When reviewing the length of a sentence,
we consider the defendant’s entire sentence. State v. Oliver, 144 Idaho 722, 726, 170 P.3d 387,
391 (2007). Applying these standards, and having reviewed the record in this case, we cannot
say that the district court abused its discretion.
Next, we review whether the district court erred in denying Soper’s Rule 35 motion. A
motion for reduction of sentence under Rule 35 is essentially a plea for leniency, addressed to the
sound discretion of the court. State v. Knighton, 143 Idaho 318, 319, 144 P.3d 23, 24 (2006);
State v. Allbee, 115 Idaho 845, 846, 771 P.2d 66, 67 (Ct. App. 1989). In presenting a Rule 35
motion, the defendant must show that the sentence is excessive in light of new or additional
information subsequently provided to the district court in support of the motion.

State v.

Huffman, 144 Idaho 201, 203, 159 P.3d 838, 840 (2007). Upon review of the record, including
any new information submitted with Soper’s Rule 35 motion, we conclude no abuse of discretion
has been shown.
Therefore, Soper’s judgment of conviction and sentence, and the district court’s order
denying Soper’s Rule 35 motion, are affirmed.

2

IN THE COURT OF APPEALS OF THE STATE OF IDAHO

Remittitur

STATE OF IDAHO,

Q

Docket No. 47810-2020

Plaintiff-Respondent;
v.

Minidoka County District Court
CR34-19-00858

THOMAS MORGAN SOPER, II,
Defendant-Appellant.

TO:

Fifth Judicial District, County of Minidoka

The Court having announced its Unpublished Opinion in this cause December 30, 2020, and the
Supreme Court having denied Appellant’s Petition for Review on January 25, 2021; therefore;
IT IS HEREBY ORDERED that the District Court shall forthwith comply with the directive of the
Unpublished Opinion, if any action is required.

Dated January 25, 2021
Melanie Gagnepain
Clerk of the Courts

A

11

IN THE SUPREME COURT OF THE STATE OF IDAHO
i

STATE OF IDAHO,
Plaintiff-Respondent,

Order Denying Petition for Review
Docket No. 47810-2020
Minidoka County District Court No.
CR34-19-00858

v.
THOMAS MORGAN SOPER, II,
Defendant-Appellant.

The Appellant having filed a Petition for Review on briefs previously submitted on January 20,
2021, seeking review of the Unpublished Opinion of the Court of Appeals released December
30, 2020; therefore, after due consideration,
IT IS HEREBY ORDERED that Appellant's Petition for Review be, and is hereby, denied.
Dated January 25, 2021

By Order of the Supreme Court

Melanie Gagnepain
Clerk of the Courts

d;

